Deonte Kinwan McCoy #382437
St. Louis Correctional Facility
8585 N. Croswell Rd.
St. Louis, MI 48880

RE: Motion Excusing Delay/Writ of Certiorari/Proof of Service
Case No: New

PROOF OF SERVICE
The undersigned first states, the petition was corrected as required to be resubmitted to this office within 60
days from the date Clerks’ Letter, of August 23, 2021. As required by Rules 14.5, 29.2, and 39.
The undersigned certifies that on ^Z'Z ,2021, (1) one copy of his Motion Excusing Delay, Motion for
Writ of Certiorari, along with this Proof of Service, was served upon the parties by way of personal service,
regular first class mail or, facsimile to the address(es) listed below. Postage being fully pre-paid, and placing them
in the prison’s expedited legal mail system located at St. Louis Correctional Facility.

SUPREME COURT OF THE UNITED STATES
Office of the Clerk
Washington, DC 20543-0001

ATTORNEY GENERAL, STATE OF MICHIGAN
Dana Nessel
G. Mennen Williams Bldg., 7th FL,
525 W. Ottawa
P.O. Box. 30212
Lansing, MI 48909

I declare that the statement above is true to the best of my information, knowledge, and belief.

I

Sincerely,
Date:

1/oX .,2021

U
DiMte K..McCoy #382437

